Wendy Alison Nora*
ACCESS LEGAL SERVICES, LLC**
310 Fourth Avenue South, Suite 5010
Minneapolis, Minnesota 55415
VOICE (612) 333-4144
FAX (612) 206-3170
accesslegalservices@gmail.com

* Not admitted to practice law in Minnesota or Wisconsin
Admitted to practice before the United States Supreme Court only
**Providing research, investigative, technical,

document and filing services upon the request

of and at the direction of qualified attorneys in

all U.S. states, except the State of Wisconsin

March 19, 2021

Scott S. Harris, Clerk of the United States Supreme Court
United States Supreme Court

1 First Street, NE

Washington, DC 20543 VIA UPS

RE: Letter of Blanket Consent for Amicus Curiae Briefs on Petition for Writ of Certiorari
to the Wisconsin Supreme Court
Office of Lawyer Regulation (OLR) v. Wendy Alison Nora

Dear Clerk Harris or Deputy Clerk:

Please note for the record this Letter of Blanket Consent for Amicus Briefs to be
submitted in support of either party or neither party in accordance with Rule 37.1(a) which
provides, in relevant part:

... A petitioner or respondent may submit to the Clerk a letter granting blanket consent to
amicus curiae briefs, stating that the party consents to the filing of amicus curiae briefs in
support of either or of neither party. The Clerk will note all notices of blanket consent on
the docket.

The undersigned gives her blanket consent to the submission of briefs from amicus curiae
in support of either or neither party.
Thank you for your attention to this matter.

Very truly yours,

Wendy Alison Nora

cc: Attorney Paul W. Schwarzenbart, Retained counsel for the Respondent
Encl, As stated above
